Abdul Mohammed
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
630-854-5345
amohammed@hotmail.com
September 27, 2021

CERTIFICATE OF SERVICE
I, Abdul Mohammed, the Pro Se Petitioner, hereby certifies that on this 27th Day
of September 2021,1 caused a copy of the Writ of Mandamus/Prohibition of the
Petitioner to be served by email to all the Respondents. I further certify that all
parties required to be served have been served.
Respectfully submitted,
Abdul Mohammed
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
630-854-5345
amohammed@hotmail.com

11

